gi
\

2311 Douglas Street CO C K L E E-Mail Address:

Omaha, Nebraska 68102

> s t ‘klelegalbriefs..

1800-098. I egal Briefs contact@cocklelegalbriefs.com
022 O98 Web Site

an Est. 1923 www.cocklelegalbriefs.com

No. 20-843

NEW YORK STATE RIFLE & PISTOL ASSOCIATION, et al.,
Petitioners,
v.
KEVIN P. BRUEN, in His Official Capacity as
Superintendent of New York State Police, et al.,

Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE PRESIDING
BISHOP AND PRESIDENT OF THE HOUSE OF DEPUTIES OF THE EPISCOPAL CHURCH; THE
EVANGELICAL LUTHERAN CHURCH IN AMERICA; GENERAL SYNOD OF THE UNITED CHURCH OF
CHRIST; CENTRAL CONFERENCE OF AMERICAN RABBIS; UNION OF REFORM JUDAISM; WOMEN OF
REFORM JUDAISM; MEN OF REFORM JUDAISM; THE CHURCH OF THE BRETHREN OFFICE OF
PEACEBUILDING AND POLICY; RECONSTRUCTIONIST RABBINICAL ASSOCIATION;
RECONSTRUCTING JUDAISM; AND MORE THAN 400 INDIVIDUAL CLERGY AND FAITH LEADERS
FROM UNITED METHODIST, PRESBYTERIAN, EPISCOPAL, EVANGELICAL LUTHERAN (ELCA),
UNITED CHURCH OF CHRIST, MENNONITE, DISCIPLES OF CHRIST, AFRICAN METHODIST
EPISCOPAL (AME), CHURCH OF GOD IN CHRIST, UNITARIAN UNIVERSALIST, AMERICAN BAPTIST,
COOPERATIVE BAPTIST, JEWISH, CATHOLIC, AND MULTI-DENOMINATIONAL TRADITIONS IN
SUPPORT OF RESPONDENTS in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and the
brief contains 7445 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of September, 2021.
I am duly authorized under the laws of the State of Nebraska
to administer oaths.

41279

GENERAL ROTARY Slate of Nebraska wv Chk
RENEE J. GOSS 0. c
Notary Public

My Comm. Exp. September 8, 2023
Affiant

 
